No. 20-711

In the Supreme Court of the United States
__________________

CITY OF FAIRBANKS, ALASKA, ET AL.,
Petitioners,
v.
MARVIN ROBERTS, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

BRIEF IN OPPOSITION
__________________
TIFFANY CARTWRIGHT
JEFFREY TAREN
REBECCA TALBOTT
MACDONALD, HOAGUE & BAYLESS
1500 Hoge Building
705 Second Avenue
Seattle, WA 98104
(206) 622-1604
tiffanyc@mhb.com

ANNA BENVENUTTI HOFFMANN
Counsel of Record
NICK BRUSTIN
KATHERINE HAAS
NEUFELD SCHECK & BRUSTIN, LLP
99 Hudson Street, Eighth Floor
New York, NY 10013
(212) 965-9081
anna@nsbcivilrights.com

THOMAS R. WICKWIRE
2775 Hanson Road, Suite 1
Fairbanks, AK 99709
(907) 474-0068

MIKE KRAMER
REILLY COSGROVE
KRAMER AND ASSOCIATES
542 4th Avenue, Suite 207
Fairbanks, AK 99701
(907) 888-4098

Attorneys for Respondents
Kevin Pease and George Frese

Attorneys for Respondents
Marvin Roberts and Eugene Vent
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the court of appeals correctly held that
respondents’ criminal convictions did not bar their
§ 1983 claims under Heck v. Humphrey, 512 U.S. 477
(1994), because a court vacated the convictions after
the State stipulated that respondents were entitled to
post-conviction relief.

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
A. Factual background . . . . . . . . . . . . . . . . . . 2
B. Procedural history . . . . . . . . . . . . . . . . . . . 5
REASONS FOR DENYING THE WRIT . . . . . . . . . . 9
I.

There is no circuit split that warrants this
Court’s intervention . . . . . . . . . . . . . . . . . . . . 9

II.

The decision below faithfully follows this
Court’s precedent. . . . . . . . . . . . . . . . . . . . . . 11

III.

This case would be a poor vehicle for this
Court’s review . . . . . . . . . . . . . . . . . . . . . . . . 14
A. This case is not an appropriate vehicle to
resolve unrelated questions . . . . . . . . . . . 15
B. The significance of unique circumstances
to Petitioners’ argument makes this case
a poor vehicle for the Court’s review . . . . 17
C. This appeal is interlocutory, and the
enforceability of the settlement
agreement is not ripe for review . . . . . . . 19

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

iii
TABLE OF AUTHORITIES
CASES
Bronowicz v. Allegheny Cty.,
804 F.3d 338 (3d Cir. 2015) . . . . . . . . . . . . . . 9, 10
Cutter v. Wilkinson,
544 U.S. 709 (2005). . . . . . . . . . . . . . . . . . . . . . . 21
Fields v. Twitter, Inc.,
881 F.3d 739 (9th Cir. 2018). . . . . . . . . . . . . . . . . 8
Gilles v. Davis,
427 F.3d 197 (3d Cir. 2005) . . . . . . . . . . . . . . . . . 9
Hamilton-Brown Shoe Co. v. Wolf Bros. & Co.,
240 U.S. 251 (1916). . . . . . . . . . . . . . . . . . . . . . . 19
Heck v. Humphrey,
512 U.S. 477 (1994). . . . . . . . . . . . . . . . . . . passim
McDonough v. Smith,
139 S. Ct. 2149 (2019). . . . . . . . . . . . . . . 11, 12, 13
McLaughlin v. State,
214 P.3d 386 (Alaska Ct. App. 2009) . . . . . . . . . 18
Poventud v. City of New York,
750 F.3d 121 (2d Cir. 2014) . . . . . . . . . . . . . 10, 11
Roesch v. Otarola,
980 F.2d 850 (2d Cir. 1992) . . . . . . . . . . . . . . . . 10
Rumery v. Town of Newton,
778 F.2d 66 (1st Cir. 1985) . . . . . . . . . . . . . . . . . 20
State v. Cooper,
176 Wash. 2d 678 (2013). . . . . . . . . . . . . . . . . . . 16

iv
Town of Newton v. Rumery,
480 U.S. 386 (1987). . . . . . . . . . . . . . . . . . . passim
United States v. Hayden,
255 F.3d 768 (9th Cir. 2001). . . . . . . . . . . . . . . . 16
Va. Military Inst. v. United States,
508 U.S. 946 (1993). . . . . . . . . . . . . . . . . . . . . . . 19
Wallace v. Kato,
549 U.S. 384 (2007). . . . . . . . . . . . . . . . . . . . . . . 12
STATUTES
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . passim
Civil Rights Act of 1871, Rev. Stat. § 1979 . . . . . . . 11
Alaska Stat. § 12.72.010(4) . . . . . . . . . . . . . . 4, 18, 19
Cal. Penal Code § 1203.4 . . . . . . . . . . . . . . . . . . . . . 16
Wash. Rev. Code Ann. 9.94A.640 . . . . . . . . . . . . . . 16
RULES
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . 19
Alaska Crim R. 35.1 . . . . . . . . . . . . . . . . . . . . . . . . . 18
OTHER AUTHORITIES
Br. of Amici Curiae Scholars in Support of
Appellants, Roberts v. City of Fairbanks, 947
F.3d 1191 (9th Cir. 2020), available at 2019 WL
540341 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7

v
Brandon L. Garrett & Lee Kovarsky, Federal
Habeas Corpus (2013). . . . . . . . . . . . . . . . . . . . . . 6
Randy Hertz & James S. Liebman, Federal Habeas
Corpus Practice and Procedure (7th ed. 2018). . . 6
Anup Malani, Habeas Settlements, 92 Va. L. Rev. 1,
37 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

1
INTRODUCTION
The petition should be denied. The Alaska superior
court vacated Respondents’ murder convictions based
on a stipulation that new evidence of their innocence
warranted that relief. There is no split in how circuits
have applied Heck v. Humphrey, 512 U.S. 477 (1994),
to vacated convictions such as these. Of the two cases
Petitioners identify for their purported split: one was
decided before Heck; and the second did not involve a
conviction at all, but rather participation in a pretrial
diversion program.
The uniformity of the law in this area is
unremarkable given this Court’s settled precedent that
Heck does not bar claims under 42 U.S.C. § 1983 when
there is no outstanding criminal judgment, which the
Ninth Circuit applied faithfully to this case. Petitioners
claim the Ninth Circuit erred, emphasizing specific
language in the release-dismissal agreement leading to
the vacatur and particular circumstances surrounding
its entry. These arguments are wrong, but they also
demonstrate why granting review of this fact-bound
case would not provide meaningful guidance to lower
courts. And these distinctive facts implicate other,
potentially dispositive, legal questions—including the
enforceability of the release-dismissal agreement under
Town of Newton v. Rumery, 480 U.S. 386
(1987)—which were neither passed on below nor part
of the question presented.
Attempting to find a question that could merit this
Court’s review, Petitioners wander far afield from the
Ninth Circuit’s holding or the circumstances of this
case. Respondents did not participate in a pretrial

2
diversion program or have their convictions expunged
due to the passage of time. Rather, based on
substantial evidence of their actual innocence of the
crimes for which they had spent 18 years imprisoned,
the State stipulated they were entitled to have their
convictions vacated and dismissed all charges against
them. The issues Petitioners highlight are not
presented here and this would not be the appropriate
case in which to reach them.
STATEMENT OF THE CASE
A. Factual background.
Plaintiffs/Respondents Marvin Roberts, George
Frese, Kevin Pease, and Eugene Vent were arrested by
the Fairbanks Police Department, tried, and convicted
of a 1997 murder they did not commit. The men—three
Alaska Natives and one Native American, known
colloquially as “the Fairbanks Four”—were between the
ages of 17 and 20. Pet. App. 3a.
While Respondents were imprisoned, new evidence
of their innocence emerged, including a confession from
an individual named William Holmes that he, Jason
Wallace, and three other men—not Respondents—had
actually committed the crime. Respondents filed
petitions for post-conviction relief, and the Alaska
Superior Court “ruled that the petitions stated a prima
facie case of actual innocence, allowing [Respondents]
to proceed with discovery, which lasted two years.” Pet.
App. 4a.
While that litigation was ongoing, formerFairbanks-prosecutor and counsel-for-Jason-Wallace

3
Jason Gazewood wrote to the post-conviction
prosecutors to warn that Respondents’
convictions were likely to be vacated and that a
retrial would be “virtually unwinnable.” He
noted that the lead investigator of the murder,
Detective Clifford Aaron Ring, had “edit[ed] his
recordings in such a way as to not record
exculpatory information while using coercive
techniques to obtain confessions,” and that the
Fairbanks Police Department (“FPD”) was well
aware of Detective Ring’s “use of deceptive
interviewing techniques.” For these reasons,
among others, Gazewood warned the prosecutors
that Plaintiffs were likely to seek—and
win—tens of millions of dollars in a civil-rights
suit against those involved in procuring their
wrongful convictions.
Pet. App. 4a–5a.
The state court then held a five-week evidentiary
hearing, at which Respondents presented extensive
evidence of their actual innocence. This included
testimony from (1) William Holmes, who confessed on
the stand that he had committed the crime with Jason
Wallace and three others (not Respondents); (2) twelve
witnesses—including an Alaska State Trooper—
corroborating Holmes’s confession; (3) four witnesses to
whom Wallace had also confessed to the murder;
(4) the sole witness to identify Respondents at trial,
Arlo Olson, who testified that FPD officers had coerced
him into making false identifications; (5) forensic
experts who explained the purported match between
Frese’s boot print and the victim’s injuries offered by

4
the prosecution was unreliable junk science; and
(6) alibi witnesses for all four Respondents. Pet. App.
5a–6a.
After the hearing, the judge told the parties that he
would not render a decision for another six to eight
months. The prosecutors “publicly stated that they
would appeal any decision favorable to Plaintiffs all the
way to the Alaska Supreme Court, thereby extending
the men’s already lengthy incarceration for an
indefinite period.” Pet. App. 6a.
Several weeks after the hearing and just before
Christmas 2015, the prosecutors offered Respondents
a deal: the prosecution would consent to vacatur of the
convictions, dismissal of the charges, and immediate
release of the three Respondents who were still
imprisoned1—but only if all four men agreed to release
the police and prosecutors from any liability related to
their convictions. Pet. App. 6a. Having already spent 18
years each wrongly imprisoned, Respondents
acquiesced.
As part of the release-dismissal agreement,
Respondents and the State stipulated: (1) that the
original judgments of conviction were properly and
validly entered based on proof beyond a reasonable
doubt; (2) that there is sufficient new evidence that a
new trial could be ordered under AS 12.72.010(4)
(which allows for post-conviction relief when “there
exists evidence of material facts, not previously
presented and heard by the court, that requires
vacation of the conviction or sentence in the interest of
1

Marvin Roberts had already been released on supervised parole.

5
justice”); and (3) that the court could immediately
vacate Respondents’ convictions. Pet. App. 6a–7a.
Following a hearing, the Alaska Superior Court
vacated the convictions of the four men, and Eugene
Vent, George Frese, and Kevin Pease were released
from custody. The State dismissed the indictments
against the men and has never sought to retry them.
Pet. App. 7a–8a.
B. Procedural history.
In 2017, Plaintiffs/Respondents Roberts, Vent,
Frese, and Pease filed a lawsuit under 42 U.S.C. § 1983
against the City of Fairbanks and four of its police
officers seeking damages for violations of Respondents’
constitutional rights leading to their wrongful
convictions. Pet. App. 8a. Respondents asserted that
the release of their claims pursuant to the settlement
agreement with the State of Alaska was invalid under
Town of Newton v. Rumery, 480 U.S. 386 (1987), which
holds that such “release-dismissal” agreements may be
enforced only when defendants prove they are
“voluntarily made, not the product of prosecutorial
overreaching, and in the public interest.” Id. at 401
(opinion of O’Connor, J., concurring in part and
concurring in the judgment).
Respondents alleged the releases were the result of
prosecutorial overreaching and did not serve the public
interest because the State sought the release for the
purpose of “suppressing complaints against official
abuse,” id. at 400, as opposed to “a legitimate criminal
justice objective,” id. at 401. Respondents also alleged
they had no meaningful choice but to sign because

6
prosecutors threatened to keep three of the men
imprisoned indefinitely unless all four signed the
release.
Rather than attempt to meet their burden under
Rumery to prove the release-dismissal agreement was
enforceable, Defendants/Petitioners filed a motion to
dismiss Respondents’ lawsuit based on Heck v.
Humphrey, 512 U.S. 477 (1994), arguing that the
vacatur of Respondents’ convictions pursuant to the
release-dismissal agreement did not invalidate their
convictions for purposes of Heck. Although neither
Petitioners nor the district court cited a single case
applying Heck to bar a § 1983 claim where, as here, all
underlying convictions have been vacated, the district
court granted Petitioners’ motion.
Respondents appealed. On appeal, over a dozen
prominent scholars (including three authors of leading
federal courts treatises2), “troubled by the district
court’s egregious misapplication of Heck to dismiss
plaintiffs’ claims,” submitted an amicus brief urging
reversal. Br. of Amici Curiae Scholars in Support of
Appellants at 1, Roberts v. City of Fairbanks, 947 F.3d
1191 (9th Cir. 2020), available at 2019 WL 540341. As
the scholars summarized, while “[s]ome cases present
difficult questions under Heck…[t]his is not one of
them.” Id. Rather, “[t]his case falls squarely within the
2

Randy Hertz of Randy Hertz & James S. Liebman, Federal
Habeas Corpus Practice and Procedure (7th ed. 2018); Brandon
Garrett and Lee Kovarsky of Brandon L. Garrett & Lee Kovarsky,
Federal Habeas Corpus (2013). See Br. of Amici Curiae Scholars in
Support of Appellants at v, 33, Roberts v. City of Fairbanks, 947
F.3d 1191 (9th Cir. 2020), available at 2019 WL 540341.

7
list of circumstances where Heck is inapplicable.” Id. at
6.
The Ninth Circuit reversed in a published opinion
authored by Judge Richard Tallman and joined by
Judge N. Randy Smith. The Ninth Circuit held that
because the “plain language” of Heck “requires the
existence of a conviction in order for a § 1983 suit to be
barred,” dismissal pursuant to Heck was improper. Pet.
App. 13a. The court noted that Heck’s instructions on
this point are explicit: “If the district court determines
that the plaintiff’s action, even if successful, will not
demonstrate the invalidity of any outstanding criminal
judgment against the plaintiff, the action should be
allowed to proceed, in the absence of some other bar to
the suit.” Heck, 512 U.S. at 487 (quoted at Pet. App.
13a). In the present case, the Ninth Circuit concluded
that “[b]ecause all convictions here were vacated and
underlying indictments ordered dismissed, there
remains no outstanding criminal judgment nor any
charges pending against Plaintiffs. The absence of a
criminal judgment here renders the Heck bar
inapplicable[.]” Pet. App. 13a.
The Ninth Circuit also noted that a number of other
issues regarding the ultimate viability of Respondents’
suit were not yet ripe. The court noted the district
court had “not passed upon” the enforceability of the
release-dismissal agreement, but rather “dismissed
Plaintiffs’ claims at the pleading stage,” without
hearing any evidence about “whether Plaintiffs
voluntarily entered into the Settlement Agreement or
whether enforcement is in the public interest.” Pet.
App. 27a–29a. The court therefore found it was

8
“premature” for it to address the enforceability of the
release-dismissal agreement under Rumery and left
that issue for the district court on remand. Pet. App.
29a. The Ninth Circuit similarly found it premature to
address Defendants’ argument that Plaintiffs’ suit may
be dismissed based on “the equitable doctrine of
judicial estoppel,” which also had not been addressed
by the district court. Pet. App. 27a. Noting the district
court had also not addressed whether Plaintiffs had
sufficiently alleged a favorable termination to state
§ 1983 malicious prosecution claims, the Ninth Circuit
left that issue, too, for the district court on remand.
Pet. App. 27a.3 Finally, because this appeal occurred at
the motion-to-dismiss stage, the Ninth Circuit noted it
was required to “accept[] all factual allegations in the
complaint as true and constru[e] them in the light most
favorable to” Plaintiffs, and that the court accordingly
did “not address whether Plaintiffs’ allegations can be
proven.” Pet. App. 4a n.1 (quoting Fields v. Twitter,
Inc., 881 F.3d 739, 743 (9th Cir. 2018)).
Judge Sandra Ikuta dissented, and Petitioners filed
a petition for rehearing en banc, which the full court
denied. Judge Lawrence VanDyke dissented from the
denial of rehearing, joined solely by Judge Ikuta.

3

In addition to the § 1983 malicious prosecution claims,
Respondents also have a number of other theories of liability,
including § 1983 claims for fabrication of evidence, Brady
violations, and civil rights conspiracy. Pet. App. 8a.

9
REASONS FOR DENYING THE WRIT
I.

There is no circuit split that warrants this
Court’s intervention.

Despite Petitioners’ claims to the contrary, there is
no circuit split. The holding of the Ninth Circuit below
is that “where all convictions underlying § 1983 claims
are vacated and no outstanding criminal judgments
remain, Heck does not bar plaintiffs from seeking relief
under § 1983.” Pet. App. 3a. Even though, as
Petitioners note, the application of Heck “is one of the
most frequently litigated issues in the federal courts,”
(Pet. 7) they do not identify a single court—
anywhere—to reach the opposite result.
Petitioners assert old cases from the Second and
Third Circuits arising in different circumstances
suggest those courts would decide this case differently.
Pet. 16–17. They do not.
First, Gilles v. Davis, 427 F.3d 197 (3d Cir. 2005),
does not demonstrate a conflict. In Gilles, the Third
Circuit did not consider whether vacatur of a conviction
lifts the Heck bar (the issue here) but rather whether
participation in a pretrial diversion program was the
functional equivalent of a conviction for purposes of
Heck. Gilles, 427 F.3d at 209 (describing how
participation in the pretrial diversion program “may be
statutorily construed as a conviction” for certain
purposes).4 But in Bronowicz v. Allegheny Cty.,
4

Each case Petitioner cites is interpreting the legal effect of a
different state’s statutory scheme, see Pet. 16–18, which could
easily account for any divergent results. But even assuming for the
sake of argument there were a split on how Heck applies to pretrial

10
804 F.3d 338 (3d Cir. 2015), the Third Circuit
addressed a very similar argument to the one
Petitioners make here (see Pet. 6)—and rejected it. The
Bronowicz defendants argued Heck barred the
plaintiff’s § 1983 suit “because the Superior Court
vacated the sentence but expressly declined to address
[the plaintiff’s] challenges to the legality of the
sentence and proceedings—that is, the Superior Court
never declared that it was an illegal sentence.” Id. at
345 (internal quotation marks and citation omitted).
Just as the court below did here, the Third Circuit
rejected that argument as “a distinction without a
difference,” holding that by vacating the sentence the
court “plainly invalidated” it for purposes of Heck.
Bronowicz, 804 F.3d at 345.
The other case Petitioners point to, Roesch v.
Otarola, 980 F.2d 850, 853 (2d Cir. 1992), did not
address Heck at all, for the simple reason that it was
decided in 1992—two years before Heck was decided.
And the Second Circuit has since confirmed that it, like
the Ninth Circuit below, agrees that Heck does not bar
a § 1983 suit where the plaintiff’s conviction has been
vacated because “[a] court invalidates the final
judgment in a state criminal trial when it vacates a
conviction,” and “[f]rom that moment on, a § 1983 suit
would not demonstrate the invalidity of the vacated
conviction.” Poventud v. City of New York, 750 F.3d
diversion programs, it would not be implicated here. Respondents
did not participate in a pretrial diversion program; they spent 18
years wrongly imprisoned before their convictions were fully
vacated based on a stipulation that new evidence of their innocence
entitled them to post-conviction relief. After that order entered
“[t]here are no charges pending against any of these men…Nor do
they stand convicted of anything.” Pet. App. 25a.

11
121, 134 (2d Cir. 2014) (en banc) (internal quotation
marks and citation omitted).
In short, although some Heck questions may divide
the federal courts, this one does not. The law is uniform
that where all convictions have been vacated, Heck
does not bar a plaintiff’s § 1983 suit.
II.

The decision below faithfully follows this
Court’s precedent.

The uniformity in the federal courts is hardly
surprising, because the decision below flows directly
from this Court’s precedent. “[T]he Court in Heck held
that in order to recover damages for allegedly
unconstitutional conviction or imprisonment…a
plaintiff in a § 1983 action first had to prove that his
conviction had been invalidated in some way.”
McDonough v. Smith, 139 S. Ct. 2149, 2157 (2019).
Here, that plainly happened: the state court vacated
Respondents’ convictions. The Ninth Circuit holding
that Heck does not bar Respondents’ claims follows
straight from this Court’s decisions.
In Heck v. Humphrey, this Court considered a claim
“at the intersection of the two most fertile sources of
federal-court prisoner litigation—the Civil Rights Act
of 1871, Rev. Stat. § 1979, as amended, 42 U.S.C.
§ 1983, and the federal habeas corpus statute, 28
U.S.C. § 2254.” Heck, 512 U.S. at 480.. While serving a
15-year sentence for voluntary manslaughter, separate
and apart from his habeas challenges to his conviction,
petitioner Roy Heck brought a pro se § 1983 suit for
money damages, alleging that investigative misconduct

12
by prosecutors and investigators had caused him to be
wrongly convicted. Id. at 478–79.
Motivated by “the hoary principle that civil tort
actions are not appropriate vehicles for challenging the
validity of outstanding criminal judgments,” and not
wanting to “expand opportunities for collateral attack,”
this Court announced a new rule. Heck, 512 U.S. at
486. In order to “recover damages for allegedly
unconstitutional conviction or imprisonment,” the
§ 1983 plaintiff must “demonstrate that the conviction
or sentence has already been invalidated.” Heck, 512
U.S. at 486–87. This Court described four ways a
plaintiff could demonstrate invalidation of a conviction:
“the conviction or sentence has been [1] reversed on
direct appeal, [2] expunged by executive order,
[3] declared invalid by a state tribunal authorized to
make such determination, or [4] called into question by
a federal court’s issuance of a writ of habeas corpus.”
Heck, 512 U.S. at 487. And it instructed “if…the
plaintiff’s action, even if successful, will not
demonstrate the invalidity of any outstanding criminal
judgment against the plaintiff, the action should be
allowed to proceed, in the absence of some other bar to
the suit.” Heck, 512 U.S. at 487.
Thirteen years later, in Wallace v. Kato, this Court
again emphasized that the Heck rule “is called into
play only when there exists ‘a conviction or sentence
that has not been…invalidated,’ that is to say, an
‘outstanding criminal judgment.’” Wallace v. Kato, 549
U.S. 384, 393 (2007) (alteration in original) (quoting
Heck, 512 U.S. at 486–87). Most recently, in
McDonough v. Smith, this Court yet again reaffirmed

13
Heck’s basic holding. McDonough, 139 S. Ct. at 2157
(noting Heck requires a § 1983 plaintiff alleging he had
been wrongly convicted “to prove that his conviction
had been invalidated in some way”).
Here, the Ninth Circuit held that the state court
order vacating Respondents’ convictions satisfied the
third exception to Heck’s bar—namely, that
Respondents’ convictions were “‘declared invalid by a
state tribunal authorized to make such determination,’
and that Heck is therefore no bar to the suit.” Pet. App.
23a (quoting Heck, 512 U.S. at 487) (explanatory
parenthetical omitted). As the Ninth Circuit explained:
The Heck Court was explicit: “If the district
court determines that the plaintiff’s action, even
if successful, will not demonstrate the invalidity
of any outstanding criminal judgment against
the plaintiff, the action should be allowed to
proceed, in the absence of some other bar to the
suit.” Because all convictions here were vacated
and underlying indictments ordered dismissed,
there remains no outstanding criminal judgment
nor any charges pending against Plaintiffs. The
absence of a criminal judgment here renders the
Heck bar inapplicable; the plain language of the
decision requires the existence of a conviction in
order for a § 1983 suit to be barred.
Pet. App. 13a (quoting Heck, 512 U.S. at 487). This
holding faithfully applied the governing precedent.
There is no conflict.
Petitioners’ argument to the contrary relies on their
contention that, by analogizing to malicious

14
prosecution, this Court in Heck expressly adopted the
common-law definition of favorable termination. But as
the Ninth Circuit noted, that “contravenes the plain
language of Heck” and is “simply wrong.” Pet. App. 21a.
Indeed, Heck’s list of four ways to prove invalidation of
a conviction themselves do not demonstrate “favorable
termination” as that is understood at common law. See,
e.g., Pet. App. 21a–22a (discussing how “a federal
court’s issuance of a writ of habeas corpus”—the fourth
listed exception to Heck’s bar—does not constitute
favorable termination at common law).
III.

This case would be a poor vehicle for this
Court’s review.

Even if Petitioners had identified an important
federal question meriting this Court’s review—and
they have not—this case would be a poor vehicle for
resolving that question. This case does not involve a
pretrial diversion program or an expungement statute,
and thus any consideration of the impact of a ruling
here on those dissimilar scenarios would be purely
hypothetical. Rather, Petitioners’ argument here turns
on idiosyncratic facts—including the specific language
of the release-dismissal agreement and circumstances
of the entry of the vacatur—and is therefore unlikely to
provide helpful guidance for other cases. Finally,
pivotal legal questions—including the enforceability of
the release-dismissal agreement under this Court’s
governing precedent—are not yet ripe for review in this
interlocutory appeal.

15
A. This case is not an appropriate vehicle
to resolve unrelated questions.
Because Petitioners cannot identify any truly
analogous cases that would be impacted by the decision
below, they instead speculate that it will lead to a raft
of § 1983 claims arising from unrelated scenarios, such
as the expungement of a conviction due to the passage
of time or participation in a pretrial diversion program
to avoid a record of conviction.5 But those
circumstances are so factually dissimilar that it would
make no sense for the Court to accept review of this
case in order to rule on such hypothetical fact patterns
untethered from the record here.
This case does not present the question whether
Heck bars civil suits arising from minor criminal
charges that were avoided through pretrial diversion or
later expunged. Respondents were convicted of a
murder they did not commit and each spent nearly 18
years of their lives wrongly imprisoned for that
murder. At a five-week hearing, Respondents presented
substantial evidence of their actual innocence,
including an on-the-stand confession from one of the
true killers. The State then stipulated this new
evidence required vacatur of the convictions, and the
convictions were vacated and all charges dismissed.
5

Petitioners do not advance the “floodgates” argument raised by
Judge Ikuta’s dissent from the panel decision: that it would
allegedly permit anyone who had served out a sentence to bring a
§ 1983 suit. See Pet. App. 44a & n.6. As the Ninth Circuit majority
decision points out, this improperly “conflates ‘conviction’ and
‘incarceration,’” Pet. App. 24a; the majority specifically emphasizes
that a person whose conviction still stands may not bring a § 1983
suit, even if his incarceration has ended, Pet. App. 24a & n.14.

16
Pet. App. 7a–8a. As the Ninth Circuit observed, at this
point “[t]here are no charges pending against any of
these men…. Nor do they stand convicted of anything.”
Pet. App. 25a.
In contrast, the rehabilitative statutes that
Petitioners point to relieve an offender of some
consequences of conviction; they do not fully vacate the
conviction. Compare, e.g., Pet. at 14 & n.5 (pointing to
California Penal Code § 1203.4 and Wash. Rev. Code
Ann. 9.94A.640) with United States v. Hayden, 255
F.3d 768, 772 (9th Cir. 2001) (California Penal Code
§ 1203.4 “provides a limited form of relief” and “does
not ‘erase’ or ‘expunge’ a prior conviction”; the
conviction may still be counted as offense under the
three strikes law, used to revoke a license, or to
impeach a witness) and State v. Cooper, 176 Wash. 2d
678, 682 (2013) (noting conviction expunged under
Wash. Rev. Code. Ann. 9.94A.640 may still be used “as
an element of a crime to determine guilt in a
subsequent prosecution”).
This record bears no resemblance to the cases
Petitioners claim will bedevil the federal courts with
complicated questions regarding the application of
Heck to pretrial diversion and expungement. If this
Court believes that one of those questions may warrant
its intervention, it should wait to grant review of a case
that presents it.

17
B. T h e
significance
of
unique
circumstances to Petitioners’ argument
makes this case a poor vehicle for the
Court’s review.
Petitioners’ argument also hinges on the import of
specific facts that are unlikely to recur. First,
throughout their petition—in their question presented,
in their statement of the case (Pet. 3), and again in
their reasons for granting the writ (Pet. 13)—the
Petitioners emphasize one particular portion of
language in the stipulation leading to the vacatur of
Respondents’ convictions: that “the original jury
verdicts and judgments of conviction were properly and
validly entered based on proof beyond a reasonable
doubt.” Pet. 13. Second, Petitioners emphasize one oral
remark made by the state court judge who vacated the
conviction that they claim establishes his role was
simply to “ministerially sign the orders necessary to
[e]ffect the decision of the attorney general.” Pet. 3. The
combination of these two factors, Petitioners argue,
means that even though the Alaska Superior Court
vacated Respondents’ convictions and they ceased to
exist, there was never “a judicial determination that
Respondents’ convictions were unlawfully obtained or
constitutionally infirm,” which Petitioners assert is
required by Heck. Pet. 13.
The significance of these idiosyncratic facts to
Petitioners’ arguments would make this case a poor
vehicle for providing guidance on the Heck bar even if
Petitioners’ arguments were correct. But, as the Ninth
Circuit recognized, Petitioners’ arguments are wrong in
any event. Pet. App. 24a–25a.

18
There is no dispute that the Alaska Superior Court
vacated Respondents’ convictions pursuant to the
parties’ stipulation “that there is sufficient new
evidence of material facts that a new trial could be
ordered under AS § 12.72.010(4),” which means “that
the new evidence now undermines the validity of the
original verdicts and ‘requires vacation of the
conviction or sentence in the interest of justice.’” Pet.
App. 25a (quoting Alaska Stat. § 12.72.010(4)
(emphasis added)). Petitioners neglect to mention this
portion of the parties’ stipulation anywhere in their
petition—likely because it presents a textbook example
of a conviction being “declared invalid by a state
tribunal authorized to make such a determination,”
Heck, 512 U.S. at 487.
Petitioners argue instead that in this particular
case, the combination of some of the other specific
language of the parties’ stipulation leading to the
vacatur and a stray remark made by the judge who
entered the order altered this presumptive conclusion
and left the validity of Respondents’ convictions
undisturbed. That is incorrect.6 More significantly,
6

In the vast majority of jurisdictions, including Alaska, “rules of
procedure [do not] authorize judges to amend sentences” that have
become final unless a court has made the independent
determination that conditions for post-conviction relief have been
satisfied. Anup Malani, Habeas Settlements, 92 Va. L. Rev. 1, 37,
47 (2006); McLaughlin v. State, 214 P.3d 386, 386 (Alaska Ct. App.
2009) (“Alaska Statute 12.72.010 and Alaska Criminal Rule 35.1
define the grounds and the procedures…by which a person who is
convicted of a criminal offense can attack a conviction.”).
Consistent with that requirement, here the parties presented the
Alaska Superior Court with a stipulation that the legal grounds for
relief under the statute were met (i.e., that there was sufficient
new evidence that a new trial would probably produce an

19
these unique circumstances that culminated in the
split panel decision below and dissent from denial of
rehearing are unlikely to recur in any other case and do
not present an important question of federal law that
should be settled by this Court. And a decision from
this Court parsing Petitioners’ fact-specific arguments
based on those unusual circumstances is unlikely to
provide meaningful guidance in more typical cases.
C. This appeal is interlocutory, and the
enforceability of the settlement
agreement is not ripe for review.
The interlocutory posture of this appeal—arising
from a decision denying a motion to dismiss under
Federal Rule of Civil Procedure 12(b)(6)—alone is
reason to deny review. See Va. Military Inst. v. United
States, 508 U.S. 946, 946 (1993) (Scalia, J., respecting
the denial of certiorari) (the Court “generally await[s]
final judgment in the lower courts before” granting
review); Hamilton-Brown Shoe Co. v. Wolf Bros. & Co.,
240 U.S. 251, 258 (1916) (interlocutory posture is “a
fact that of itself alone furnishe[s] sufficient ground for
the denial of” certiorari).
But here, that general precept applies with special
force, given the vast array of potentially relevant legal
issues never passed on by the courts below. Most
prominent is the question of the enforceability of the
release-dismissal agreement. Although this Court has
a separate precedent devoted entirely to the
enforceability of such agreements, Town of Newton v.
acquittal), and based on that stipulation and the court’s
assessment that it lawfully used the structures required by Alaska
Statute 12.72.010 the court vacated the convictions.

20
Rumery, 480 U.S. 386 (1987), Petitioners never
addressed it below, choosing instead to focus on their
Heck argument. That this and other intertwined legal
issues are not ripe or presented for review provides yet
another reason review here is unwarranted.
In Rumery, this Court rejected “a per se rule against
release-dismissal bargains,” id. at 394, while
recognizing that in some cases, “release-dismissal
agreements may not be the product of an informed and
voluntary decision,” id. at 393, or they may be used by
prosecutors to “suppress evidence of police misconduct,
and leave unremedied deprivations of constitutional
rights,” id. at 394 (quoting Rumery v. Town of Newton,
778 F.2d 66, 69 (1st Cir. 1985)). Justice O’Connor, who
provided the fifth vote for the Court’s judgment, wrote
separately “to emphasize that it is the burden of those
relying upon such covenants to establish that the
agreement is neither involuntary nor the product of an
abuse of the criminal process.” Id. at 399 (O’Connor, J.,
concurring in part and concurring in the judgment).
“The defendants in a § 1983 suit may establish that a
particular release executed in exchange for the
dismissal of criminal charges was voluntarily made,
not the product of prosecutorial overreaching, and in
the public interest. But they must prove that this is so;
the courts should not presume it[.]” Id. at 401.
On remand, Petitioners will have the opportunity to
meet this burden. The Ninth Circuit did not rule
whether, under Rumery, the release-dismissal
agreement barred this suit because Petitioners had
never pressed that argument and the district court had
not yet addressed it; instead, it explicitly left that issue

21
for the district court on remand. Pet. App. 29a.
Similarly, the opinion below never addressed
Petitioners’ argument that judicial estoppel barred
Respondents’ claims, or that Respondents had not
sufficiently alleged favorable termination for their
§ 1983 malicious prosecution claims. Pet. App.
11a–12a, 27a. All of these legal issues are potentially
intertwined with the question framed by Petitioners.
But none of them is actually presented in the petition,
and none is ripe for review by this Court. See Cutter v.
Wilkinson, 544 U.S. 709, 718, n. 7 (2005) (“[W]e are a
court of review, not of first view.”).
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be denied.

22
Respectfully submitted,
TIFFANY CARTWRIGHT
JEFFREY TAREN
REBECCA TALBOTT
MACDONALD, HOAGUE & BAYLESS
1500 Hoge Building
705 Second Avenue
Seattle, WA 98104
(206) 622-1604
tiffanyc@mhb.com

ANNA BENVENUTTI HOFFMANN
Counsel of Record
NICK BRUSTIN
KATHERINE HAAS
NEUFELD SCHECK & BRUSTIN, LLP
99 Hudson Street, Eighth Floor
New York, NY 10013
(212) 965-9081
anna@nsbcivilrights.com

THOMAS R. WICKWIRE
2775 Hanson Road, Suite 1
Fairbanks, AK 99709
(907) 474-0068

MIKE KRAMER
REILLY COSGROVE
KRAMER AND ASSOCIATES
542 4th Avenue, Suite 207
Fairbanks, AK 99701
(907) 888-4098

Attorneys for Respondents
Kevin Pease and George Frese

Attorneys for Respondents
Marvin Roberts and Eugene Vent

